   CONTROLLER STAFFING:
OBSERVATIONS ON FAA’S 10-YEAR
STRATEGY FOR THE AIR TRAFFIC
  CONTROLLER WORKFORCE
     Federal Aviation Administration
      Report Number: AV-2005-060
       Date Issued: May 26, 2005
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Controller Staffing:                     Date:    May 26, 2005
           Observations on FAA’s 10-Year Strategy
           for the Air Traffic Controller Workforce
           AV-2005-060
  From:                                                            Reply to
           David A. Dobbs                                          Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Federal Aviation Administrator

           This report provides the results of our review of the Federal Aviation
           Administration’s (FAA) initiatives to address air traffic control staffing issues.
           Our objective was to evaluate actions taken or planned by FAA to address key
           staffing issues within the controller workforce to ensure the safe, efficient, and
           cost-effective operation of the National Airspace System in light of expected
           increases in controller attrition.       We conducted the review between
           September 2004 and May 2005, which included visiting more than 30 air traffic
           control facilities. Exhibit A contains details on the scope and methodology we
           used in conducting this review. Exhibit B lists the facilities visited during the
           audit.

           BACKGROUND
           Attrition in FAA’s air traffic controller workforce is expected to rise sharply over
           the next 10 years, as controllers hired after the 1981 Professional Air Traffic
           Controllers Organization strike become eligible for retirement. An air traffic
           controller is eligible to retire under special retirement provisions at age 50 with
           20 years of active service as a controller or at any age with 25 years of active
           service. Air traffic controllers are also subject to mandatory retirement at age 56,
           although controllers may apply annually for a waiver of mandatory retirement
           until age 61. Waivers are determined on a case-by-case basis. FAA currently
           estimates that over 11,000 controllers (or about 75 percent of its controller
           workforce) could leave the Agency between fiscal year (FY) 2005 and FY 2014.



                                                    i
In light of air traffic controller staffing concerns, as part of FAA’s 4-year
reauthorization in 2003, Congress required FAA to submit a report by
December 2004 addressing the Agency’s plan to ensure adequate staffing within
the air traffic controller workforce. FAA submitted its controller workforce plan
in December 2004 entitled, “A Plan for the Future: The Federal Aviation
Administration’s 10-Year Strategy for the Air Traffic Control Workforce.” This
workforce plan details FAA’s strategy for managing the hiring of approximately
12,500 new controllers to replace those expected to leave over the next 10 years.
Figure 1 shows the magnitude of the projected losses by year, along with the
planned number of new hires by year that FAA must recruit.

                               Figure 1. Estimated Losses Versus Planned Hires

                           2000
   Number of Controllers




                           1500




                                                                                                                                 1559
                                                                                                         1508


                                                                                                                  1488




                                                                                                                                1472
                                                                                                                         1451
                                                                                                                         1432
                                                                                               1412




                                                                                                                1375
                                                      1249




                                                                                                      1249
                                                                   1248




                                                                                    1152

                                                                                           1144
                                                                           1104




                           1000
                                                                                  1032
                                                                          967
                                                             907
                                    686



                                                654




                            500
                                          435




                               0
                                   2005 2006 2007 2008 2009 2010 2011 2012 2013 2014
                           Estimated Losses            Planned Hires               Fiscal Year



Source: FAA



RESULTS IN BRIEF
FAA’s controller workforce plan for addressing the expected surge in controller
attrition over the next decade establishes the first milestone in what will be a series
of future annual reports to Congress. In our opinion, the plan is a good first step in
that it clearly lays out the magnitude of the issue and establishes planned actions
for meeting the challenge. However, future reports to Congress will require
greater detail in terms of FAA’s strategy for executing key elements of the plan,
the total costs associated with the plan, and the Agency’s progress in meeting
established milestones. That information is necessary to ensure that Congress, the
Department, and the Office of Management and Budget have a complete and
accurate picture of the ongoing 10-year plan and the resources required.



                                                                                  ii
In our opinion, there are four issues that need to be specifically addressed in the
next report to Congress, which is due at the beginning of the FY 2007
Appropriations cycle.

• Staffing by Location: FAA’s Workforce Plan Does Not Address Staffing
  Needs by Location. FAA’s hiring plan is aggregated at the national level only
  and contains no information on when and where new controllers will be
  placed. Planning by location is critical because FAA has over 300 terminal
  and en route air traffic control facilities that have significant differences in
  their size, complexity, and volume of air traffic. For example, the control
  tower at Ann Arbor, Michigan, conducted about 64,000 operations in FY 2004.
  In comparison, the control tower at Chicago O’Hare conducted over 1,700,000
  operations during the same time frame.

   Without accurate facility-level planning, FAA runs the risk of placing too
   many or too few controllers at key locations and could waste a one-time
   opportunity to address longstanding concerns about controller staffing
   imbalances. Given the significant expenditures that will be required to hire
   and train 12,500 new controllers over the next 10 years, this issue needs to be a
   top priority for the Agency. In recent testimony before the House
   Appropriations Subcommittee, the Administrator committed to completing
   those plans by the end of this year.

   As part of its facility-level planning, FAA will also need to consider other
   factors that can have a significant impact on staffing, including the use of
   overtime, compensatory time, and credit hours. Each of those factors
   influences the number of full-time controller positions required. For example,
   using overtime judiciously instead of hiring additional controllers can be
   advantageous for meeting operational needs during special circumstances. As
   part of the workforce plan, FAA plans to examine how to make better use of
   overtime to reduce the number of controllers needed at each location. In
   FY 2004, air traffic facilities used over 529,000 hours of overtime or the
   annual equivalent of 255 full-time controller positions.

   We agree that judicious use of factors such as overtime can be advantageous
   for meeting staffing needs. However, in our prior work we found numerous
   agreements (both local and national) between FAA and the National Air
   Traffic Controllers Association (NATCA) covering work rules, such as shift
   scheduling, overtime usage, time-off awards, compensatory time, and credit
   hours, that had significant repercussions in terms of staffing.

   Addressing national and local work rules that can affect staffing will be a
   critical issue for FAA in the pending negotiations with NATCA over a new


                                        iii
   collective bargaining agreement. The existing collective bargaining agreement
   expired in September 2003 but was extended by the union and FAA for an
   additional 2 years. The extension is now due to expire in September 2005. As
   part of those negotiations, FAA will need to identify and take appropriate
   corrective actions to address any work rules that have the potential to affect
   controller staffing.

• Training: FAA’s Plan Focuses on Reducing On-The-Job Training Time
  for New Controllers While Significantly Increasing the Percentage of
  Developmental Controllers in the Workforce. A key component of FAA’s
  workforce plan focuses on reducing the average time new or developmental
  controllers spend in on-the-job training (OJT) at their assigned locations.
  Currently OJT takes an average of 2 to 5 years. FAA plans to reduce that time
  to 2 to 3 years—a goal that appears achievable. However, FAA is planning to
  reduce the average time developmental controllers spend in OJT while at the
  same time significantly increasing the number of developmental controllers in
  the workforce. FAA plans to increase the percentage of developmental
  controllers to over 30 percent of the total workforce beginning in FY 2007,
  which would be the highest percentage of developmental controllers in recent
  years. Currently, only about 15 percent of the workforce are developmental
  controllers, and over half of those are certified controllers who transferred to a
  new facility and only have to learn the airspace of their new location. The
  increase in the percentage of developmental controllers is a concern because it
  means there will be fewer certified controllers within the workforce to control
  air traffic and to provide OJT.

   The planned increase of developmental controllers underscores the need for the
   Agency to have facility-level plans for hiring and training controllers. Facility-
   level details are needed so that managers can begin planning now on how to
   handle the logistics of a significantly increased percentage of developmental
   controllers within their workforces. FAA will also need to continually monitor
   the training results from individual facilities to ensure the increased percentage
   of developmental controllers does not adversely impact the overall efficiency
   or safety of operations of the National Airspace System.

• Costs: FAA Does Not Identify the Total Costs Associated With
  Implementing the Plan. FAA has not identified the annual and total costs for
  hiring and training the number of new controllers it says it needs over the next
  10 years. FAA has also not identified the offsetting savings it will realize from
  attrition. FAA submitted some of the cost details of the controller staffing plan
  in its FY 2006 Budget Submission. For example, FAA requested $24.9 million
  to hire and train a net increase of 595 new controllers in FY 2006 but provides



                                         iv
   no details for FY 2007 and beyond when the costs of the staffing plan may
   increase significantly as hiring increases.

   FAA needs to develop detailed cost estimates before the next submission of its
   controller staffing plan so that Congress, the Department, and the Office of
   Management and Budget have a clear understanding of the costs associated
   with the plan. These estimates should identify the annual and total net costs of
   hiring new controllers, as well as estimates for items such as training, new
   equipment, and travel. These estimates should also be updated annually to
   reflect the Agency’s progress in meeting the requirements of the plan, as well
   as any changes made to the plan.

• Controller Productivity: FAA’s Plan Assumes the Agency Will Be Able
  To Reduce Staffing by 10 Percent Through Increased Controller
  Productivity, but Many Initiatives Are in the Earliest Stages of Planning.
  FAA’s plan assumes achieving numerous staffing reductions through
  productivity gains. For example, FAA plans to decrease the use of sick leave
  by 8 percent and evaluate the use of part-time controllers and split shifts. The
  intent of these initiatives is to improve productivity by making more
  controllers available for controlling traffic.

   FAA anticipates that these initiatives will allow the Agency to reduce
   controller staffing by about 10 percent over the next 5 years, relative to the
   existing staffing standards. Many of these initiatives, however, are in the
   earliest planning stages and have no anticipated implementation dates.
   Furthermore, some initiatives (such as the use of split shifts and limiting the
   use of controllers on workgroups) may require successful union negotiations.

   Implementing these initiatives is an ambitious operational undertaking and will
   require continuous monitoring on the part of FAA to determine if the desired
   outcomes are being achieved. To ensure the initiatives are achieving the
   desired results, FAA must establish baseline metrics for the initiatives, then
   update the workforce plan annually to reflect the actual progress made in
   achieving each initiative and ultimately in achieving the goal to reduce
   controller staffing by 10 percent.

SUMMARY OF RECOMMENDATIONS
Our recommendations focus on the specific actions FAA needs to take to ensure
that its stakeholders have a complete and accurate picture of the ongoing 10-year
strategy for the controller workforce and the resources that will be required.
Our recommendations to FAA include:



                                        v
- Developing accurate facility staffing standards and hiring plans that identify
  where and when new air traffic controllers will be placed (that information
  should then be provided to facility managers so they begin planning on how to
  handle the increased number of developmental controllers within their
  workforces);

- Identifying and taking corrective actions to address any work rules that have
  the potential to adversely affect controller staffing;

- Developing detailed cost estimates of the annual and total costs associated with
  the plan; and

- Establishing metrics for all initiatives included in the plan and annually
  evaluating the actual progress made in achieving a 10 percent staffing
  reduction.

A complete set of our recommendations can be found on page 14.

MANAGEMENT COMMENTS
On April 27, 2005, we provided a draft copy of this report to officials from FAA’s
Air Traffic Organization for their review and oral comments. In general, they
agreed with the facts as presented in our report and concurred with our
recommendations.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your formal written comments on this report within
30 calendar days. If you concur with the findings and recommendations, please
indicate the specific actions taken or planned and the target dates for action. If
you do not concur, please provide an explanation of your position. We welcome
any alternative courses of action that could resolve these issues.

We appreciate the cooperation and assistance provided by you and your staff
during our review. If you have any questions or need further information, contact
me at (202) 366-0500 or Dan Raville, Program Director, at (202) 366-1405.

                                        #
cc: FAA Deputy Administrator
    FAA Chief of Staff
    Anthony Williams, ABU-100



                                        vi
                                      TABLE OF CONTENTS

FINDINGS
    FAA’s Workforce Plan Does Not Address Controller Staffing at the
    Facility Level. .................................................................................................. 1


    Key To FAA’s Plan Is Reducing Average On-The-Job Training
    Time for New Controllers While Significantly Increasing the
    Percentage of Developmental Controllers in the Workforce............................ 8


    FAA Has Not Identified the Costs Associated With Implementing
    the Controller Workforce Plan. ........................................................................ 9


    FAA’s Plan Relies on Numerous Initiatives That Have Not Yet
    Been Implemented. ....................................................................................... 11


RECOMMENDATIONS ...................................................................................... 14


EXHIBIT A. SCOPE AND METHODOLOGY .................................................... 15


EXHIBIT B. FACILITIES VISITED .................................................................... 16


EXHIBIT C. RELATED OFFICE OF INSPECTOR GENERAL REPORTS ....... 17
                                                                                                                  1




FINDINGS

FAA’s Workforce Plan Does Not Address Controller Staffing at
the Facility Level
FAA’s plan focuses on controller staffing only at the national level and does not
provide details about where new controllers will be placed. For example, in
FY 2006, FAA is planning to hire 1,249 new controllers 1 at a cost of
$24.9 million. While this projection provides FAA with a hiring requirement for
budgeting purposes, it does not detail specifically where and when these new
controllers will be needed. FAA currently has over 300 terminal and en route air
traffic control facilities located throughout the continental United States, Alaska,
Hawaii, Guam, and other locations.

There are significant differences in these facilities, ranging from the complexity of
the airspace they control to the volume of air traffic they handle. For example, the
control tower at Ann Arbor, Michigan, conducted about 64,000 operations in
FY 2004. In comparison, the control tower at Chicago O’Hare conducted over
1,700,000 operations during the same time frame.

There are also significant differences between terminal facilities and en route
centers. Terminal facilities control air traffic in the immediate airspace around
airports, both by visual sighting, as in many control towers, and by radar coverage
at Terminal Radar Approach Controls (TRACONs). En route centers control air
traffic and are responsible for separating aircraft flying at higher altitudes and
airspeeds across the country.

The wide differences between FAA’s facilities require differences in the
knowledge, skills, and abilities of controllers and underscore the need for FAA to
detail where new controllers will be needed. Many facilities, such as Chicago
O’Hare, are critical to the efficient operations of the entire National Airspace
System. However, determining where new controllers will be placed is
problematic for the Agency because the current staffing standards used by FAA
are not accurate at the facility level.

FAA’s Staffing Standards Are Not Accurate at the Facility Level
FAA has used staffing standard models to determine controller staffing levels
since the 1970s and they are the basis for the current workforce plan. Those
staffing standards are generally accurate at a “macro” level because the models
were designed to generate national estimates, but they are not accurate at the

1
    The 1,249 new controllers will result in a net increase of 595 controllers after expected attrition of 654.
                                                                                2


facility level. In fact, in 1997, the National Academy of Sciences completed a
review of FAA’s staffing standards and concluded:

       The committee does not believe that the current staffing
       standards can be used to provide highly accurate estimates of
       staffing requirements for individual [air traffic control]
       facilities.

At the facilities we visited, we compared FAA’s current staffing standards with
the actual number of controllers assigned at those locations. We found that the
staffing standards were often not an accurate picture of the needs of a facility. For
example, the New York TRACON has always been considered a “hard-to-staff”
location. However, according to FAA’s staffing standards, the TRACON is
actually overstaffed by 55 controllers.

As shown in Table 1, the New York TRACON had more controllers than the
staffing standard required while the Oakland Center was understaffed according to
the staffing standards. In spite of this, the New York TRACON spent four times
as much in overtime costs in FY 2004 to meet its operational needs.


     Table 1. Staffing Standard Versus Actual on Board (AOB)

  Facility       FY 2004          AOB             Difference         FY 2004
                  Staffing        as of                           Overtime Costs
                 Standard      Dec 20, 2004

New York            177             232              +55             $4.4 million
TRACON

Oakland             344             226              -118            $1.1 million
Center



FAA’s Current Staffing Standards Do Not Include a Number of Key
Factors
We also found that the current staffing standards do not consider a number of
significant factors when determining the staffing levels for a facility. At the
facilities visited, we asked the air traffic managers and the facility union
representatives what should be considered when establishing staffing levels for a
facility. Some of the responses we received were:
                                                                                3


   • Airspace complexity is not considered in the staffing standards. The
     airspace complexities vary significantly between facilities, based on local
     airports, traffic patterns, and numerous other factors.

   • Runway configurations are not included in the mathematical models. For
     example, air traffic control operations at Chicago O’Hare International
     Airport, with its numerous intersecting runways, differs greatly from the
     operations at Dallas/Ft. Worth International Airport, which has parallel
     runways.

   • Staffing standards are established based on the number of fully certified
     controllers required to safely operate the air traffic volume. They do not
     take into consideration that facilities very seldom have all fully certified
     controllers.

Most Facilities We Visited Did Not Use Staffing Standards as the
Basis for Determining Staffing Needs
During interviews with air traffic managers and NATCA union representatives at
the facilities we visited, we were informed that rather than using the staffing
standard as a guide to staff their facilities, many facility managers and union
representatives currently negotiate the facility staffing levels. When comparing
these negotiated staffing levels to the staffing standards, we found that at 26 of the
30 facilities we visited, the negotiated levels were higher. Table 2 shows the
comparison of staffing standards to negotiated staffing level at both the 30
facilities we visited and at all the FAA air traffic control facilities.


  Table 2. Staffing Standard Versus Negotiated Staffing Levels
            Facilities      FY 2004            FY 2003          Difference
                             Staffing        Negotiated
                            Standard        Staffing Level

          30 Facilities        2,748             3,029              281
          Visited
          All Air             15,136            15,703              567
          Traffic
          Facilities



When we asked facility managers and union representatives what staffing the
facility was authorized, nearly all of them responded with the negotiated staffing
                                                                                 4


number. In fact, several of the managers we spoke with did not know what the
staffing standard was for their facility. The existence of two “authorized”
numbers for each facility can compound existing confusion over facility staffing.
For example:

   • The New York TRACON has recently received much publicity concerning
     staffing levels at the facility. According to the controllers, the facility is
     severely understaffed because it only has 228 controllers when its staffing
     requirement (negotiated between FAA managers and local union officials)
     calls for 270 controllers. Neither FAA nor the union refers to the staffing
     standard, which calls for only 177 controllers.

FAA is aware of the need for accurate staffing standards at the facility level. In
the workforce plan, FAA states that in order to develop more accurate staffing
standards, it will begin a reassessment of its air traffic staffing models for terminal
and en route operations during FY 2005. The reassessment will also examine
whether other criteria are more appropriate for determining staffing at the facility
level.

Completing that assessment expeditiously is particularly important for the Agency
to address staffing imbalances as it replaces retiring controllers. Various groups
have repeatedly expressed concerns that some FAA air traffic facilities are either
under- or over-staffed. In 1995, a congressional request for a staffing standard
study stated that: “After many years of internal study, the FAA still does not have
a complete understanding of how many controllers are required at each of its
facilities.”

A review conducted by FAA in 1994 indicated that almost 30 percent of the
Agency’s field facilities had staffing imbalances of greater than 10 percent,
compared to the staffing standard. During our audit, we compared staffing
standards to actual staffing at all FAA facilities, which showed that over
62 percent of FAA’s field facilities have staffing imbalances when compared to
the existing staffing standards. However, because FAA’s facility staffing
standards are inaccurate, determining the actual extent of controller staffing
imbalances is not possible.

To adequately address these staffing issues for the coming decade, FAA must
determine down to the facility level of detail where and when controllers will be
needed. To accomplish this, we recommend that FAA begin its reassessment of
the current staffing standards as soon as possible, taking into consideration all
significant factors, such as airspace complexities and runway configurations, when
determining appropriate staffing standards for each facility.
                                                                               5


Other Factors Can Affect Staffing
While accurate facility staffing standards are key to FAA’s workforce plan, it is
important to recognize that there are other components that can have a significant
impact on facility staffing.       Those include how locations use overtime,
compensatory time (comp time), and credit hours. At many locations, we found
similar facilities that had substantial differences in their use of overtime, comp
time, and credit hours.

For example, the air traffic control towers (ATCT) at Nashville, TN, and Raleigh,
NC, are the same type of facility. Figure 2 shows that at the time of our review
each facility had nearly the same negotiated staffing levels (46 vs. 48 controllers)
and nearly the same number of operations (508,627 vs. 524,074 operations). Both
facilities also had a total of 44 controllers on board. However, the Raleigh tower
used more than 38 times the number of overtime hours than the Nashville tower
(3,224 vs. 83 hours).


              Figure 2. Comparison of Similar ATCT Facilities
                                                                              6



Figure 3 shows similar results when comparing similar TRACON facilities. The
Southern California TRACON and the New York TRACON had a similar number
of operations (1,995,100 vs. 1,904,369), negotiated staffing levels (261 vs. 270),
and controllers actually on board (243 vs. 232). However, there is a significant
difference in the number of overtime hours used at the facilities (18,876 vs.
44,565).

            Figure 3. Comparison of Similar TRACON Facilities




There are many factors affecting overtime, comp time, and credit hours that are
unique to a location. Special events (such as sporting events and large
conventions), training on new equipment (such as new automated oceanic
equipment at several en route centers), and meeting operational needs are all
factors affecting overtime, comp time, and credit hours used at a facility. Many
times, a facility will use overtime as a “stop-gap” measure to fill a need for more
staffing for a special event instead of hiring additional controllers.
                                                                                 7


We recognize that judicious use of these methods is important in meeting
operational needs during special circumstances without increasing the need for
additional full-time controllers. However, in our prior work, we also found
circumstances where local (and in some cases national) policies and agreements
increased overtime, comp time, and credit hour usage significantly—often without
sufficient operational reasons. For example, in our audit “FAA’s Management of
and Controls Over Memorandums of Understanding” (AV-2003-059, September
12, 2003), we found FAA and the controllers’ union at the national and local level
had entered into numerous memorandums of understanding (MOUs) that had
significant operational affects on staffing. For example:

       • One MOU for a new free flight tool, the User Request Evaluation Tool,
         gave each controller two $250 cash awards and a 24-hour time-off award
         for meeting certain training milestones on the new system. The MOU
         contained no distinction of awards for individual contributions other than
         coming to work and attending training.           In fact, at 2 locations,
         11 controllers received the total cash award and 16 controllers received the
         24 hours of time-off even though they were on detail, military leave,
         medically disqualified, or on workers’ compensation leave. At six facilities
         alone, this MOU resulted in FAA incurring approximately $1.3 million in
         individual cash awards and 62,500 hours in time off, which is the annual
         equivalent of approximately 30 full-time positions.

       • In December 2001, we issued a report on “Air Traffic Services’ Policy of
         Granting Time Off Work to Settle Grievances and Other Complaints” 2
         which found that facility managers routinely granted credit hours and
         excused absences to settle grievances and other complaints submitted by air
         traffic controllers. Managers contended that credit hours had no cash value
         and therefore did not affect the cost of operations. We found that at one
         facility alone, managers granted 113 bargaining unit members 60 credit
         hours each to settle grievances (a total of 6,780 or the annual equivalent of
         3 full-time controllers).

In both instances, FAA agreed with our recommendations and took appropriate
corrective actions.

Addressing work rules and local policies that can affect staffing will be a critical
issue for FAA in the pending negotiations over a new collective bargaining
agreement with NATCA. The existing collective bargaining agreement expired in
September 2003 but was extended by the union and FAA for an additional 2 years.
The extension is now due to expire in September 2005. As part of those


2
    OIG Report Number CC-2002-048, December 14, 2001.
                                                                                                        8


negotiations, FAA will need to identify and take corrective actions to address any
work rules that have the potential to affect controller staffing.

Key To FAA’s Plan Is Reducing Average On-The-Job Training
Time for New Controllers While Significantly Increasing the
Percentage of Developmental Controllers in the Workforce
OJT for developmental controllers is the longest part of the training process and
thus the most expensive. Facility training includes both classroom and simulation
training on the airspace of their assigned facility and training on live traffic with a
certified professional controller (CPC). Currently, OJT takes an average of 2 to 5
years.

FAA’s workforce plan establishes a goal of decreasing the time it takes
developmental controllers to become fully certified. FAA’s goal is to reduce the
current 3 to 5 years it takes to become a fully CPC at an en route center to 3 years
and reduce the current 2 to 3 years it takes to certify at a terminal facility to 2
years. According to FAA, the reduction in training time could be realized through
increased use of simulation and a greater emphasis on accomplishing OJT at
facilities.

Although FAA’s goal of certifying controllers at an en route facility in 3 years and
a terminal facility in 2 years appears to be realistic, it is important to note that
these are national estimates. The length of time it takes to become a certified
controller varies by facility. For example, during our recent audit “Opportunities
To Improve FAA’s Process for Placing and Training Air Traffic Controllers,” 3 we
visited 17 facilities and found the overall time required for newly hired controllers
to become certified at those locations averaged 3.1 years but in some cases took as
long as 7 years.

We found there were many factors that affected the length of OJT at the various
facilities, including the hiring source, level of the facility, local training policies,
and operational needs of the facility. Unless FAA accumulates site-specific
statistics on a national level, FAA has no means to assess the overall OJT process,
determine whether training resources can be more efficiently and effectively used,
and identify the most efficient and best practices. We recommended that FAA
compile these data and establish a baseline to better manage the time and costs
associated with the controller OJT process and include these in developing a
tracking system for training. FAA concurred with our recommendation and
included this as a major initiative in the workforce plan, with an expected
completion date of May 2006.

3
    OIG Report Number AV-2004-060, “Opportunities To Improve FAA’s Process for Placing and Training Air Traffic
    Controllers in Light of Pending Retirements,” June 2, 2004.
                                                                               9


Although FAA is planning to reduce the average training time it takes to become a
certified controller, we have concerns about the Agency’s ability to achieve this
while at the same time increasing the percentage of developmental controllers in
the workforce. Beginning in FY 2007, FAA is planning to increase the percentage
of developmental controllers at en route centers to 32 percent of the total
workforce. According to FAA, a workforce consisting of up to 35 percent
developmental controllers is acceptable. However, that level of developmental
controllers would represent the highest percentage of the workforce in recent
years.

We found that only about 15 percent of the national controller workforce is
currently composed of developmental controllers. And over half of these current
developmental controllers are previously certified controllers who transferred to a
new facility, already know how to control air traffic, and only have to certify on
new airspace. The increase in the percentage of developmental controllers is a
concern because it means there will be fewer certified controllers within the
workforce to control air traffic and to provide OJT.

Air Traffic managers and NATCA facility representatives we interviewed during
this audit indicated that a staffing ratio of up to 25 percent of developmental
controllers to CPCs would still allow effective controller training. Because FAA
is expecting to increase the percentage of developmental controllers to 32 percent
of the workforce as early as FY 2007 in the en route centers, it is vital for FAA to
have facility-level plans for hiring and training controllers immediately available
so that managers can begin planning how to handle the logistics of training the
increased number of developmental controllers. FAA will also need to continually
monitor the training results from the individual facilities to ensure the
developmental controller rate does not adversely affect the overall efficiency or
safety of operations in the National Airspace System.


FAA Has Not Identified the Costs Associated With Implementing
the Controller Workforce Plan
FAA’s workforce plan does not identify the annual and total costs for hiring,
training, and certifying new controllers to meet future requirements. In addition,
the workforce plan does not provide line-item cost estimates for many aspects of
its plan, including what the Agency expects to spend in additional training, new
equipment, and travel costs. Without detailed costs, Congress, the Department,
and the Office of Management and Budget will not have a clear understanding of
what is needed to fulfill the future air traffic controller requirements as proposed
in FAA’s workforce plan.
                                                                                                    10


FAA submitted some of the cost details of the workforce plan in its FY 2006
budget submission. For example, FAA requested $24.9 million to hire and train
1,249 controllers (for a net increase of 595 new controllers) in FY 2006. FAA
also estimated saving $2 million with the elimination of midnight shifts at 42 air
traffic control towers. However, FAA provides no details for FY 2007 and
beyond, when hiring projections remain at over 1,000 new controllers per year.

The largest costs associated with the workforce plan will be hiring 12,500 new
controllers over the next 10 years. The base salary of a developmental or certified
controller depends on where he or she is assigned. Generally, the more complex
the airspace and the more operations a facility conducts, the higher the controller’s
salary. Thus, knowing where a new controller will be placed would assist FAA
greatly in determining the overall salary costs for new hires. For example, as
shown in Table 3, the annual base salary for a certified controller can range from
$64,273 per year at a less complex air traffic control (level 7) facility to $139,630
per year at a more complex (level 12) facility. An important point worth noting is
that new controllers will generally have lower base salaries than the retiring
controllers they replace since their starting salaries will be at the lower ends of
their pay bands. Over time, this could help reduce FAA’s average base salary and,
in turn, help reduce FAA’s operating cost growth.


          Table 3. Certified Professional Controller Pay Band

   CPC              ATC           ATC            ATC           ATC             ATC            ATC
 Pay Band          Level 7       Level 8        Level 9       Level 10        Level 11       Level 12

From             $64,273        $71,021        $78,478         $90,249        $94,985         $99,736

To               $89,982        $99,429       $109,869       $126,349        $132,979       $139,630
*Salaries shown do not include locality pay, overtime, or premium pay. (ATC: Air Traffic Control)

There is also a lack of funding details for other costs within the controller
workforce plan. For example, FAA is aggressively pursuing changes to the
controller training process. The strategy includes the purchase of new simulators
at terminal and en route facilities to be used to enhance OJT and the conversion of
air traffic academics to web-based delivery. FAA does not identify the annual or
the total program costs of these changes. FAA needs to develop detailed cost
estimates before the next submission of its controller staffing plan so that
Congress, the Department, and the Office of Management and Budget have a clear
understanding of the costs associated with the plan. These estimates should
identify the annual and total net costs of hiring new controllers, as well as
estimates for items such as training, new equipment, and travel. These estimates
                                                                               11


should also be updated annually to reflect the Agency’s progress in meeting the
requirements of the plan, as well as any changes made to the plan.

FAA’s Plan Relies on Numerous Initiatives That Have Not Yet
Been Implemented
FAA is relying on a number of initiatives in the workforce plan to improve
workplace efficiency. FAA anticipates that over the next 5 years, these initiatives
have the potential to yield controller staff savings of about 10 percent, relative to
existing staffing standard projections. As Table 4 shows, FAA estimates the
initiatives will result in a 3 percent staff savings in FY 2005, 5 percent in FY 2006,
7 percent in FY 2007, 9 percent in FY 2008, and 10 percent each year for FY 2009
through FY 2014.


       Table 4. Estimated Staff Savings from FAA Initiatives

          Fiscal Year        Existing Staffing   Staffing Target     Estimated
                                Standard                            Staff Savings
                                Projection
             2005                 15,300              14,841             3%
             2006                 15,512              14,736             5%
             2007                 15,705              14,606             7%
             2008                 15,918              14,485             9%
             2009                 16,109              14,498             10%
             2010                 16,303              14,673             10%
             2011                 16,509              14,858             10%
             2012                 16,707              15,036             10%
             2013                 16,910              15,219             10%
             2014                 17,098              15,388             10%


FAA’s initiatives include efficiencies such as reducing the use of sick leave by
8 percent, ensuring appropriate use of workers’ compensation benefits, and
increasing scheduling efficiencies. The intent of these initiatives is to make more
controllers available for controlling traffic. Many of these initiatives, however, are
in the earliest planning stages. Furthermore, some of the initiatives will require
successful union negotiations, while others depend on future congressional
funding. A sample of these planned initiatives and their estimated implementation
dates are listed in Table 5.
                                                                             12


            Table 5. Examples of FAA’s Planned Initiatives

                        Initiatives                         Implementation Date
Update Staffing Standards                                         FY 2005
Use Overtime in Lieu of Additional Controllers                    FY 2005
Limit Official Time for Unions to Negotiated Figures           March 2005
Implement Web-Based Training                                  December 2005
Reduce Use of Sick Leave                                          FY 2006
Develop a National Training Database                             May 2006
Implement a Labor Distribution Reporting System                  June 2005
Reduce Workers’ Compensation                                      FY 2007
Increase Use of Training Simulation                           Now to FY 2008
Reduce Hours of Operations at 34 Facilities                      Unknown
Evaluate Use of Part-Time Controllers and Split Shifts           Unknown
Reduce New Hire Salaries While at the Academy                  March 2005
Collect Baseline Data on Scheduling vs. Traffic                 In Progress
Reclassify 12 Air Traffic Control Facilities                    In Progress
Limit Controller Participation on Workgroups                     Unknown
Make OJT More Efficient at Facilities                            Unknown
Increase Scheduling Efficiencies                                 Unknown
Consolidate Facilities                                           Unknown
Expand Contract Tower Program                                    Unknown


FAA has made progress regarding several of the initiatives. For example:

    • Reclassifying 12 air traffic controller facilities is intended to lower salary
      costs. The savings will be realized as new lower-salaried controllers
      replace the higher-salaried current controllers. As of April 27, 2005, FAA
      has reclassified 9 of the 12 facilities.

    • The FAA workforce plan reported that the Agency expects to change the
      way new hires are appointed and compensated, no longer paying full
      salaries while the new hire is attending training at the Academy. On
      March 25, 2005, FAA issued Policy Bulletin #33, which significantly
      lowered starting salaries for new controllers while they are attending the
      Academy.

However, many of these initiatives have unknown implementation dates.
Therefore, FAA is not yet able to accurately estimate when the staff savings might
                                                                               13


be realized. For example, FAA plans to reduce the time it takes to become a
certified controller partially through more efficient OJT at facilities. FAA states
that this will lead to a reduction in training costs, provide a more rapid response to
facility staffing needs, increase flexibility in controller scheduling, and reduce the
stress on training resources. However, FAA does not specify when these savings
would be realized.

Some of the initiatives outlined in the FAA workforce plan may need to be
negotiated with NATCA. While these negotiations could take place this year as a
new collective bargaining agreement is being negotiated, the results of those
negotiations are not guaranteed. For instance:

    • FAA plans to evaluate the use of part-time controllers and split shifts. In
      interviews with FAA facility managers and NATCA representatives we
      found a receptive attitude toward using part-time controllers. However, the
      union representatives rejected the idea of split shifts.

    • FAA also plans on limiting the use of controllers in workgroups. These
      workgroups are usually formed by MOUs with the union for special
      projects. Changes to the composition of these workgroups may need to be
      negotiated with the union.

Finally, many of the FAA initiatives depend on receiving additional congressional
funding. For example:

    • The training strategy in the controller workforce plan proposes an
      expanded use of simulation technology to reduce training time at the
      Academy and in the field facilities. While the FY 2005 omnibus
      appropriations bill includes $4 million for the procurement of simulators
      for use at terminal facilities, it is not clear whether this will fulfill FAA’s
      requirements at the terminal facilities because detailed costs are not
      provided in the workforce plan. Other funding will be needed for
      simulators at the en route facilities and at the Academy.

The actions FAA is planning to take by implementing these initiatives are an
ambitious operational undertaking. Only through continued monitoring can FAA
determine the final impact of these initiatives. To ensure the initiatives are
achieving the desired results, FAA must establish baseline metrics for the
initiatives, then update the workforce plan annually to reflect the actual progress in
achieving each initiative and ultimately in achieving the goal to reduce controller
staffing by 10 percent.
                                                                             14


RECOMMENDATIONS
Subsequent reports to Congress will require greater detail in terms of FAA’s
strategy for executing key elements of the plan, the total costs associated with the
plan, and the Agency’s progress in meeting established milestones. That
information is necessary to ensure that FAA’s stakeholders have a complete and
accurate picture of the ongoing 10-year plan and the resources required.
Therefore, we are recommending that FAA take the following actions prior to the
next report to Congress.

   1. Develop hiring plans by facility that identify specifically where and when
      new air traffic controllers will be placed and provide that information to
      facility managers so they can begin planning on how to handle the logistics
      of a significantly increased percentage of developmental controllers within
      their workforces.

   2. Initiate the planned assessment of the current staffing standards, taking into
      consideration all significant factors, such as airspace complexities and
      runway configurations, when determining appropriate staffing standards for
      each facility.

   3. In conjunction with the upcoming negotiations with NATCA over a new
      collective bargaining agreement, identify and take corrective actions as
      appropriate to address any work rules or policies that have the potential to
      adversely affect facility staffing.

   4. Develop detailed cost estimates and offsets for the controller staffing plan
      that identify the annual and total net costs associated with the plan.

   5. Establish baseline metrics for all of the initiatives in the plan and annually
      evaluate actual progress made in (a) implementing each initiative, and
      (b) achieving the anticipated staffing reduction of 10 percent.
                                                                             15



EXHIBIT A. SCOPE AND METHODOLOGY
The audit was conducted in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts. The following scope and methodology was used in conducting this
review.

During this audit, we visited FAA Headquarters, the Eastern and Central Terminal
Service Areas, the Central En Route Service Area, and air traffic control facilities
in those Service Areas. We also interviewed FAA and NATCA officials at all
locations visited. Finally, we reviewed and analyzed FAA’s “10-Year Strategy for
the Air Traffic Control Workforce.”

To evaluate actions taken or planned by FAA to address key staffing issues within
the controller workforce:

    • We interviewed FAA personnel at both the FAA Headquarters and Service
      Area offices to ascertain the accuracy and applicability of the FAA’s
      staffing standards in identifying controller staffing requirements at both the
      national level and at the individual air traffic control facility level.

    • We discussed facility staffing requirements with FAA and NATCA
      personnel assigned to all Service Areas and facilities visited.

    • We discussed actions planned and taken at the facility level to reduce the
      cost of operational overtime, to control the earning and use of credit hours,
      to reduce the use of sick leave, and to more efficiently assign controllers to
      facility watch schedules in order to better match controllers on duty with
      daily increases and decreases in air traffic volume.




Exhibit A. Scope and Methodology
                                      16



EXHIBIT B. FACILITIES VISITED
Eastern Terminal Service Area
   •   Service Area Headquarters
   •   New York TRACON
   •   Potomac TRACON
   •   Dulles ATCT
   •   Reagan National ATCT
   •   JFK ATCT
   •   LaGuardia ATCT
   •   Islip ATCT
   •   Teterboro ATCT
   •   Newark ATCT
   •   Philadelphia ATCT
   •   Richmond ATCT
   •   Patrick Henry Field ATCT
   •   Norfolk ATCT
   •   North East Philadelphia ATCT
   •   Manassas ATCT
Eastern En Route Service Area
   • Service Area Headquarters
   • Washington Center
   • New York Center
Central Terminal Service Area
   •   Service Area Headquarters
   •   Chicago TRACON
   •   DFW TRACON and ATCT
   •   Chicago O’Hare ATCT
   •   Midway ATCT
   •   Rockford ATCT
   •   Milwaukee ATCT
   •   DuPage ATCT
   •   Palwaukee ATCT
   •   Love Field ATCT
   •   Addison ATCT
Central En Route Service Area
   • Service Area Headquarters
   • Ft. Worth Center
   • Chicago Center



Exhibit B. Facilities Visited
                                                                          17




EXHIBIT C. RELATED OFFICE OF INSPECTOR
GENERAL REPORTS (1998 – 2005)
   • Next Steps for the Air Traffic Organization, CC-2005-022, April 14, 2005
   • FAA’s Actions To Address Leave and Overtime Abuse at Five Locations,
     AV-2004-081, September 9, 2004
   • Addressing Controller Attrition: Opportunities and Challenges Facing the
     Federal Aviation Administration, CC-2004-058, June 15, 2004
   • Opportunities To Improve FAA’s Process for Placing and Training Air
     Traffic Controllers in Light of Pending Retirements, AV-2004-060, June 2,
     2004
   • Using CRU-X To Capture Official Time Spent on Representational
     Activities, AV-2004-033, February 13, 2004
   • FAA’s Management of Memorandums of Understanding with the National
     Air Traffic Controllers Association, AV-2003-059, September 12, 2003
   • FAA’s Oversight of Workers’ Compensation Claims in Air Traffic
     Services, AV-2003-011, January 17, 2003
   • FAA’s Air Traffic Services’ Policy of Granting Time Off Work To Settle
     Grievances, CC-2002-048, December 14, 2001
   • Automated Flight Service Stations: Significant Benefits Could be Realized
     by Consolidating AFSS Sites in Conjunction with Deployment of OASIS,
     AV-2002-064, December 7, 2001
   • Compensation Issues Concerning Air Traffic Managers, Supervisors, and
     Specialists, AV-2001-064, June 15, 2001
   • Staffing: Supervisory Reductions Will Require Enhancements in FAA’s
     Controller-in-Charge Policy, AV-1999-020, November 16, 1998
   • Personnel Reform: Recent Actions Represent Progress but Further Effort Is
     Needed To Achieve Comprehensive Change, AV-1998-214, September 30,
     1998
   • Air Traffic Controller Workforce Labor Agreements, AV-1998-061,
     January 20, 1998

These reports can be reviewed on the OIG website at http://www.oig.dot.gov.




Exhibit C. Related Office of Inspector General Reports (1998 – 2005)
